AAAAAAAAAAAAAAA




                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Inspections and Special Inquiries




  Inspection Report

 Security Clearances at Lawrence
 Livermore National Laboratory and
 Sandia National Laboratory-California




 INS-O-09-01                                  December 2008
                                    Department of Energy
                                         Washington, DC 2 0 5 8 5

                                         December 11, 2008



MEMORAliDUM FOR ADMINISTRATQR, NATIONAL NUCLEAR SECURITY
                  ADMINISTRATION
                CHIEF HEALTH: SAFETY AbD, SECURITY OFFICER

FROM:                    Christopher R. Sharpley     .

                         Deputy hlspector General
                                                           -"-.,
                           for investigations and h~spections

SUBJECT:                 INFORMATION: inspection Report on "Security Clearances at
                         Lawrence Livemore National Laboratory and Sandia National
                         Laboratory-California"

BACKGROUND

Department of Energy facilities, including those managed by the National Nuclear Security
Administration (NNSA), use a fonllal security clearance process to authorize einployees with a
"need to know" to access classified information or special nuclear material. The NNSA Service
Center (Service Center) in Albuquerque, New Mexico, is the cognizant authority for NNSA
persoimel security clearances. ~ I fiscal
                                    I     year 2007, the Service Center spent about $21 mi!lion to
process approxiinately 52,000 persoimel security clearances for NNSA facilities. This iilcluded
Lawrence Livennore National Laboratory (Livermore) and Sandia National Laboratory-
California (Sandia), where about 9,200 individuals held clearances and approximately $3.6
inillion of the $2 1 million was expended. During this same period, the Service Center had a
backlog of over 2,500 personnel security clearance requests that it was unable to process.

Department and NNSA policies provide guidance concerning the issuance and reinvestigation of
persoiu~elsecurity clearances, including determining the justification for initial security
clearances or the co~tinuationOP sec~rityclearances. The issuance and ma~iagel~isrri     of security
clearances within the Department is time and resource intensive. and processing backlogs have
been a concenl within the Department. Ensuring security clearances are requested only when
truly recluired is a matter of policy and wiil heip reciuce unvqarranted expenditures and the
clearance bacltlog. We initiated this inspection to determine if security clearance justifications at
Livermore and Sandia met the Department's requirements.



W e concluded thal Livern~oreand Sandia orficials did not fully adhere to Department
requirements regarding security clearance justifications. Specifically, we found that Liveilnore
and Sandia officials requested and retained security clearances inconsistent with Deparlinent
policy. We determined that this issue went undetected b:i Livemore, Sandia. 2nd Service Center
person~ielsecurity officials because there were no internal controls in place to validate the
justificatioil of need as stated on the security clearance requests. We made three
recorninendations to inanagenient designed to ellsure that future security clearance requesi
justifications are subject to improved internal controls.

MANAGEMENT REACTION

In responding to a draA ol' this report, the Office ofHealt11, Safety and Security (1%) strongly
concurred "with the need for increased oversigl~tof the process for justifying access to classified
ii~fonnationwithin the DepaiZmeni " HS staled ii lias taken or initiated several actions in
enhance oversight of access authorizations.

NNSA's comments on the draft report did not specifically state whether management concurred
with the findings and recomn~endations. NNSA interpreted our report as stating that clearance
justifications should be challenged in every case. This is not what is stated in the report, nor is it
0111- intent. Rather, we believe there should be internal controls in place to ensure compliailce
with Department requirements pertaining to clearances and clearance justifications.
Management's colnn~entsare discussed in further detail in the repoi-t. Management's verbatim
 conlments are included in Appendix C.

Attachment

cc: Acting Deputy Secretary
    Chief of Staff
    Manager. Livelmore Site Office
    Manager, Sandia Site Office
    Director, Policy and Intellla1 Controls Mailagemeilt
    Director, Office of Inte~ualReview (CF-1.2)
    Audit Liaison, Livennore Site Office
    Audit Liaison, Sai~diaSite Office
SECURITY CLEARANCES AT LAWRENCE LIVERMORE
NATIONAL LABORATORY AND SANDIA NATIONAL
LABORATORY-CALIFORNIA



TABLE OF
CONTENTS


              OVERVIEW

              Introduction and Objective                    1

              Observations and Conclusions                  2


              DETAILS OF FINDING

              Clearance Justifications                      3


              RECOMMENDATIONS                               4


              MANAGEMENT COMMENTS                           5


              INSPECTOR COMMENTS                            5


              APPENDICES

              A. Scope and Methodology                      7

              B. Prior Office of Inspector General and
                 Government Accountability Office Reports   8

              C. Management Comments                        10
Overview

INTRODUCTION                      The National Nuclear Security Administration (NNSA) manages
AND OBJECTIVE                     multiple Department of Energy (Department) national laboratories,
                                  including Lawrence Livermore National Laboratory (Livermore)1
                                  and Sandia National Laboratory-California (Sandia). Livermore
                                  and Sandia are research and development institutions supporting
                                  national security through nuclear weapons stockpile stewardship,
                                  nonproliferation, homeland security, and advance defense
                                  capabilities. Due to the sensitive nature of the Livermore and
                                  Sandia missions, the Department uses a formal security clearance
                                  process to authorize employees with a “need to know” to access
                                  classified information or special nuclear material.

                                  The NNSA Service Center (Service Center) in Albuquerque, New
                                  Mexico, is the cognizant authority for NNSA personnel security
                                  clearances. In fiscal year 2007, the Service Center spent about $21
                                  million to process and retain approximately 52,000 personnel
                                  security clearances for NNSA’s facilities under its cognizance,
                                  including Livermore and Sandia, where about 9,200 individuals
                                  held clearances. Approximately $3.6 million of the $21 million
                                  was expended to process security clearance requests for Livermore
                                  and Sandia. During this same period, the Service Center had a
                                  backlog of over 2,500 personnel security clearance requests
                                  (applicants and incumbents) that it was unable to process.

                                  Department and NNSA policies provide guidance concerning the
                                  issuance and reinvestigation of personnel security clearances. The
                                  policies address roles and responsibilities of Federal and contractor
                                  officials, including determining the justification for initial security
                                  clearances or the continuation of security clearances, including
                                  reinvestigations. The Department recently established an Office of
                                  Departmental Personnel Security within the Office of Health,
                                  Safety and Security that serves as the central authority for the
                                  personnel security programs of the Department, including NNSA.

                                  The issuance and management of security clearances within the
                                  Department is time and resource intensive. Personnel security
                                  clearance processing and related backlogs have been a concern
                                  within the Department as well as a number of other Federal
                                  entities. Ensuring security clearances are requested only when


1
 On October 1, 2007, Lawrence Livermore National Security, LLC, succeeded the University of California as the
contractor managing Livermore.




Page 1                                                       Security Clearances at Lawrence
                                                             Livermore National Laboratory and
                                                             Sandia National Laboratory-California
                   truly required is a matter of policy and will help reduce
                   unwarranted expenditures and the security clearance backlog.

                   We initiated this inspection with the objective of determining if
                   security clearance justifications at Livermore and Sandia met the
                   Department’s requirements for obtaining and retaining security
                   clearances.

OBSERVATIONS AND   We concluded that Livermore and Sandia officials did not fully
CONCLUSIONS        adhere to Department requirements regarding security clearance
                   justifications. Specifically, we found that Livermore and Sandia
                   officials requested and retained security clearances inconsistent
                   with Department policy. We determined that this issue went
                   undetected by Livermore, Sandia, and Service Center personnel
                   security officials because there were no internal controls in place to
                   validate the justification of need as stated on the security clearance
                   requests.

                   The Office of Inspector General (OIG) has conducted a number of
                   reviews that identified weaknesses in personnel security internal
                   controls, including the granting of site access and badge
                   terminations. In addition, several U.S. Government Accountability
                   Office (GAO) reports have identified a clear need to improve the
                   efficiency and effectiveness of the personnel security clearance
                   process, including determining the need for a clearance, the quality
                   of the investigation, and the delays in processing clearances.
                   These reports are listed at Appendix B.




Page 2                                               Observations and Conclusions
Details of Finding

CLEARANCE            We found that Livermore and Sandia officials requested and
JUSTIFICATIONS       retained security clearances inconsistent with Department
                     policy.

                     The Department’s Manual 470.4-5, “Personnel Security,”
                     (Manual) requires that a request for an access authorization will be
                     submitted only after a determination is made that the duties of the
                     position require access to classified matter or special nuclear
                     material. The Manual states that the request will only be processed
                     when the need for access is clearly justified, to avoid the
                     unnecessary expenditure of Department funds and other resources.
                     Department and NNSA policies further require that the requesting
                     official complete a “Clearance Request/Recertification/Suitability
                     Form” to identify the specific job activity requiring a clearance,
                     duties of the position, the level of classified matter or special
                     nuclear material to be accessed, and the frequency of the access.
                     The Manual also specifies that access authorizations not be
                     requested or continued to “establish a pool of cleared” individuals;
                     “anticipate unspecified classified work”; “accommodate an
                     individual’s personal convenience”; or “avoid the use of access
                     controls or physical barriers.”

                     We interviewed a judgmental sample of 58 individuals with
                     security clearances at Livermore and Sandia. The sample included
                     contractor employees from human resources, procurement, and
                     other areas where security clearances may not be needed to
                     perform job functions. Of these 58 employees, we determined that
                     40 did not work in classified areas or with classified materials and
                     did not attend classified meetings. We noted that the
                     40 individuals were part of an established “pool of cleared
                     individuals”; or were granted clearances for anticipated
                     “unspecified classified work”; or held clearances for business or
                     personal convenience, such as delivering food and unclassified
                     paperwork. We reviewed the clearance justifications for these
                     individuals and noted that the justifications for 28 of the 40
                     individuals stated that the individuals required a “Q” clearance to
                     access secret restricted data, top secret data, or similar reasons on a
                     daily or weekly basis. This proved to be inconsistent with their
                     assigned duties.

                     Regarding the maintenance of a pool of individuals who held
                     security clearances, Livermore and Sandia management officials
                     indicated that due to the unpredictable, lengthy security clearance
                     process, they believed it necessary for employees to possess
                     security clearances in anticipation of future classified duties rather
                     than applying for a clearance once the work was identified. The



Page 3                                                                 Details of Finding
                    officials also stated that by establishing a pool of individuals with
                    security clearances, it was easier to move employees around as
                    needed.

Internal Controls   During our review, we observed that there were no internal
                    controls concerning security clearance justifications. Specifically,
                    after the contractor requestor prepared the security clearance
                    justification form, contractor and Service Center personnel security
                    reviewed the form for completeness; but neither validated the
                    security clearance justification. Contractor personnel security
                    officials told us that they did not validate the justifications stated
                    by the requestors prior to forwarding the clearance requests to the
                    Service Center. When interviewed, a Service Center official stated
                    that clearance request forms are only checked for completeness
                    and the Service Center had no reason to challenge the security
                    clearance justification requests. The official further stated that the
                    Service Center relied heavily on the contractor security clearance
                    requestors and contractor personnel security officials at the
                    laboratories to validate the security justification requests. We also
                    noted that neither the NNSA Livermore Site Office nor Sandia Site
                    Office was involved in reviewing the justifications.

                    The current process at Livermore and Sandia for
                    justifying/requesting a security clearance allows the justification to
                    go unchallenged and unvalidated, which has potentially resulted in
                    unnecessary clearances being processed and an increase in the
                    Service Center’s backlog. An Office of Departmental Personnel
                    Security senior official informed us that any unnecessary security
                    clearance requests by the laboratories would contribute to the
                    NNSA Service Center’s backlog and that the establishment of
                    internal controls to filter unnecessary security clearance requests
                    would help to alleviate the backlog.

RECOMMENDATIONS     We recommend that the Manager, Livermore Site Office, ensures
                    that:

                    1. Livermore establishes internal controls for validating that the
                       justifications for new security clearances and the continuance
                       of existing security clearances are consistent with applicable
                       Department/NNSA requirements.

                    We recommend that the Manager, Sandia Site Office, ensures that:

                    2. Sandia establishes internal controls for validating that the
                       justifications for new security clearances and the continuance




Page 4                                                              Recommendations
                of existing security clearances are consistent with applicable
                Department/NNSA requirements.

             We recommend that the Director of the Office of Health, Safety
             and Security’s Office of Security Evaluations:

             3. Incorporates a review of security clearance justifications into
                future inspections of personnel security functions at
                Department sites.

MANAGEMENT   In comments on a draft of this report, the Office of Health,
COMMENTS     Safety and Security (HS) strongly concurred “with the need for
             increased oversight of the process for justifying access to classified
             information within the Department.” HS identified actions it has
             taken or initiated to enhance oversight of access authorizations.

             NNSA’s comments regarding our draft report did not specifically
             state whether management concurred with the finding and
             recommendations. NNSA commented that “To state that the
             justifications go unchallenged and are not validated would give the
             impression that they should be challenged in each and every case
             and that each and every detail of justifications should be validated
             in advance by a federal employee.” NNSA stated that “While
             there may not be specific internal controls to ensure that
             justifications are validated . . . that does not mean, however, that
             there are not a myriad of controls in place to monitor actions and
             performance that provide reasonable assurance.” However, NNSA
             also stated that “The Chief, Defense Nuclear Security will direct
             all sites, who have not already done so, to incorporate validation
             samplings of security clearance requests as part of their existing
             survey system to provide more oversight in this area.”

             Management’s comments are provided in their entirety in
             Appendix C of the report.

INSPECTOR    We found the HS comments to be responsive to our report.
COMMENTS     Regarding NNSA’s comments, our report does not state that
             justifications should be challenged in every case and that every
             detail of justifications should be validated in advance by a Federal
             employee. The report addresses Livermore and Sandia officials
             requesting and retaining security clearances inconsistent with
             Department policy and the lack of internal controls to ensure
             justifications are valid. We did not find any evidence of internal
             controls over Sandia’s and Livermore’s security clearance
             justifications, and NNSA’s management comments only spoke in
             generalities about internal controls, never citing actual controls



Page 5                               Management and Inspector Comments
         over the clearance justifications. The lack of internal controls
         contributed to unwarranted expenditures and the security clearance
         backlog. Therefore, we continue to believe it is appropriate for
         Sandia and Livermore to be required to establish internal controls
         to ensure compliance with Department policies regarding
         clearances and their justifications.

         Because NNSA did not state whether it concurred with our
         recommendations and provide a corrective action plan, a
         management decision from NNSA is required.




Page 6                                              Inspector Comments
Appendix A

SCOPE AND     We performed the majority of our inspection fieldwork between
METHODOLOGY   June 2007 and June 2008. We interviewed Livermore, Sandia,
              NNSA, and Office of Health, Safety and Security officials and
              Livermore and Sandia employees regarding personnel security
              clearances and procedures. We reviewed Livermore, Sandia,
              NNSA, and Department of Energy policies, procedures, and
              records involving personnel security clearances. Documentation
              reviewed for this inspection included:

                 •   Department of Energy Manual 470.4-1, “Safeguards and
                     Security Program Planning and Management,”

                 •   Department of Energy Manual 470.4-2, “Physical
                     Protection,”

                 •   Department of Energy Manual 470.4-5, “Personnel
                     Security,” and

                 •   Department of Energy Form 472.1C, “Clearance
                     Request/Recertification/Suitability Form.”

              Also, pursuant to the “Government Performance and Results Act
              of 1993,” we reviewed Livermore’s and Sandia’s performance
              measurement processes as they relate to personnel security.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 7                                                Scope and Methodology
Appendix B

Prior OIG     The following Department of Energy OIG reports are related to
Reports       personnel security:

              •   “Selected Aspects of the East Tennessee Technology Park’s
                  Security Clearance Retention Process” (DOE/IG-0779, October
                  2007);

              •   “Badge Retrieval and Security Clearance Terminations at
                  Sandia National Laboratory-New Mexico” (DOE/IG-0724,
                  April 2006);

              •   "Security Clearance Terminations and Badge Retrieval at the
                  Lawrence Livermore National Laboratory” (DOE/IG-0716,
                  January 2006);

              •   “Security and Other Issues Related to Out-Processing of
                  Employees at Los Alamos National Laboratory” (DOE/IG-
                  0677, February 2005);

              •   “Personnel Security Clearances and Badge Access Controls at
                  Selected Field Locations” (DOE/IG-0582, January 2003); and,

              •   “Personnel Security Clearances and Badge Access Controls at
                  Department Headquarters” (DOE/IG-0548, March 2002).

GAO Reports   The following GAO reports were reviewed as part of our
              inspection activities:

              •   “DOD Personnel Clearances: Questions for the Record
                  Related to the Quality and Timeliness of Clearances” (GAO-
                  08-580R, March 2008);

              •   “DOD Personnel Clearances: DOD Faces Multiple Challenges
                  in Its Efforts to Improve Clearance Process for Industry
                  Personnel” (GAO-08-470T, February 2008);

              •   “DOD Personnel Clearances: Improved Annual Reporting
                  Would Enable More Informed Congressional Oversight”
                  (GAO-08-350, February 2008);

              •   “DOD Personnel Clearances: Key Factors to Consider in
                  Efforts to Reform Security Clearance Processes” (GAO-08-
                  352T, February 2008); and,



Page 8                                      Prior Office of Inspector General
                                            and Government Accountability
                                            Office Reports
Appendix B (continued)

                 •   “Intelligence Reform: GAO Can Assist the Congress and the
                     Intelligence Community on Management Reform Initiatives”
                     (GAO-08-413T, February 2008).




Page 9                                        Prior Office of Inspector General
                                              and Government Accountability
                                              Office Reports
Appendix C




Page 10      Management Comments
Appendix C (continued)




Page 11                  Management Comments
Appendix C (continued)




Page 12                  Management Comments
Appendix C (continued)




Page 13                  Management Comments
Appendix C (continued)




Page 14                  Management Comments
Appendix C (continued)




Page 15                  Management Comments
Appendix C (continued)




Page 16                  Management Comments
                                                                    IG Report No. INS-O-09-01

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Ms. Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
